                                                        Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           Of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement–Controls                  Date:   May 8, 2006
           Over the Federal Aviation Administration’s
           Conversions of Flight Service Stations to Contract
           Operations
           Project No. 06A3008A000

  From:                                                           Reply to   JA-10
           David A. Dobbs                                         Attn of:
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Ramesh K. Punwani
           Assistant Administrator
            for Financial Services/CFO

           Flight service stations provide general aviation pilots with aeronautical
           information and services necessary to promote safe flight operations. These
           services include providing pre- and in-flight weather briefings, flight planning
           assistance, and aeronautical notices. In addition, while employees at flight
           service stations do not control air traffic, they can provide in-flight direction
           and support to general aviation pilots who are lost or who need assistance.

           On February 1, 2005, the Federal Aviation Administration (FAA) awarded a
           5-year contract, with 5 additional option years, to operate the Agency’s
           58 flight service stations in the continental United States. This represents one
           of the largest non-defense outsourcing efforts in the Federal government. The
           contractor plans to consolidate the 58 flight service stations into
           20 consolidated facilities. FAA anticipates that by contracting out and
           consolidating flight service facilities, the Agency will save $1.7 billion over
           the 10-year life of the contract.
                                                                                      2

      The Office of the Inspector General plans to conduct an audit on the controls
      implemented by FAA over its conversion of flight service stations to contract
      operations. The objectives of the audit are to assess whether FAA has
      implemented effective plans and controls to (1) transition flight service stations
      to contract operations, (2) achieve anticipated savings, and (3) ensure that the
      operational needs of users continue to be met.

      We plan to begin this audit in May 2006 and will contact your audit liaison to
      arrange an entrance conference. If you have any questions or need additional
      information, please contact Dan Raville, Program Director, at (202) 366-1405
      or Susan Bader, Project Manager, at (202) 366-1989.

                                            #

cc:      FAA Deputy Administrator
         Anthony Williams, ABU-100
         Martin Gertel, M-1
